No. 20A136
In The
Supreme Court of the United States

-----•-----

SOUTH BAY UNITED PENTECOSTAL CHURCH, AND
BISHOP ARTHUR HODGES III,
v.

Applicants,

GAVIN NEWSOM, in his official capacity as the Governor of California; XAVIER
BECERRA, in his official capacity as the Attorney General of California, SONIA
ANGELL, in her official capacity as California Public Health Officer, WILMA J.
WOOTEN, in her official capacity as Public Health Officer, County of San Diego,
HELEN ROBBINS-MEYER, in her official capacity as Director of Emergency Services,
County of San Diego, and WILLIAM D. GORE, in his official capacity as Sheriff,
County of San Diego
Respondents
-----♦-----

To the Honorable Elena Kagan,
Associate Justice of the United States Supreme
Court and Circuit Justice for the Ninth Circuit
-----♦-----

SAN DIEGO COUNTY DEFENDANTS’ JOINDER
IN STATE OF CALIFORNIA’S
CONSOLIDATED OPPOSITION TO
EMERGENCY APPLICATIONS
FOR WRIT OF INJUNCTION
-----♦-----

COUNTY OF SAN DIEGO
JEFFREY P. MICHALOWSKI, Senior Deputy
*Counsel of Record
1600 Pacific Highway, Room 355
San Diego, CA 92101
(619) 531-4886
jeffrey.michalowski@sdcounty.ca.gov

Counsel for Respondents Wilma J. Wooten, in her official Capacity as Public
Health Officer, County of San Diego, Helen Robbins-Meyer, in her official
capacity as Director of Emergency Services, County of San Diego, and William
D. Gore, in his official capacity as Sheriff, County of San Diego

JOINDER IN STATE DEFENDANTS’ OPPOSITION
The County Defendants—County Public Health Officer, Dr. Wilma J. Wooten;
San Diego County Sheriff William D. Gore; and County Emergency Services Director
Helen Robbins-Meyer, all sued in their official capacities (the “County Defendants”)—
hereby join the Opposition filed by the State Defendants. 1 The County Defendants
agree that the application should be denied for all the reasons stated therein.
Respectfully submitted,
COUNTY OF SAN DIEGO
/s/ Jeffrey P. Michalowski
JEFFREY P. MICHALOWSKI
Senior Deputy

The County’s Public Health Order incorporates the state’s guidance without
modification, and does not separately address religious services. Petitioner’s App’x
338-39 ¶ 10(c). Plaintiffs argue that the County’s orders, at unspecified times, were
more restrictive than the state’s guidance, but cite only a ban on drive-in worship
services that dates to the earliest days of the pandemic (see Petition pp. 7-8), that has
long since expired, and that was not challenged or addressed in the district court
below. Since May 2020, the County’s Orders have conformed to the State’s guidance,
nothing more.
1

